CREDIT CARD AGREEMENT
F03-Y754-7
Introduction
YOUR CARDHOLDER AGREEMENT
This document, together with your Rates and Fees Table, and any amendments make up the
contract between you, the cardmember, and Citizens Bank, N.A. Any special offers related
to your Account are subject to this Agreement, unless explained otherwise. We will refer
to this document as your “Agreement.” THIS AGREEMENT CONTAINS AN ARBITRATION
PROVISION INCLUDING A NOTICE REGARDING THE RIGHT TO OPT OUT.
ACCEPTANCE OF YOUR AGREEMENT
Your use of the Account or any payment on the Account indicates your acceptance of the
terms of this Agreement.
Any Cards or checks issued to you belong to us. You agree to sign each Card before you
use it. You agree to return your Cards and checks to us at any time, if we ask you. When you
present your Card, we, a merchant, or any other party acting on our behalf can retain your
Card, without prior notice to you.
CHANGES TO YOUR AGREEMENT
We may change the terms of this Agreement, including but not limited to Annual Percentage
Rate (APR) and fees, from time to time. We may also add new terms, delete terms, or
change any benefit, service, or feature on your Account. We may do this in response to the
business, legal or competitive environment. Our ability to make changes to this Agreement is
limited by applicable law. If required by applicable law, we will provide notice of the change
to you before the effective date of the change. We will tell you in the notice if you have the
right to reject the change.
PROMISE TO PAY
We have agreed to lend you money as described in this Agreement, and you agree to pay
us back together with interest charges and fees. This promise includes paying for charges
you make (even if you do not present your Card or sign the transaction), charges that other
people make if you let them use your Account, and charges that additional authorized users
make or permit others to make.
REWARDS
Your Account might provide you with the opportunity to earn rewards. If it does, we will
separately provide you with a Reward Guide containing information and terms about your
rewards.
WORDS USED IN THIS AGREEMENT
“Account” means the relationship established between you and us in this Agreement.
“Card” means any one or more credit cards that we issue to you or someone else with your
authorization under this Agreement.
“We,” “our” and “us” mean Citizens Bank, N.A., the issuer of your credit Card and the

“You” and “your” mean anyone who
• applied for the Account (the “primary cardmember”),
• uses or maintains the Account, or
• otherwise agrees to pay for the Account or be obligated under
this Agreement.
Using your account
AUTHORIZED USERS
If you ask us to issue a Card on this Account to another person or if you allow any person
to use your Account, he or she is an authorized user. You are responsible for any use of
your Account by an authorized user. Your Account does not permit you to limit the nature
or amount of authority you give to any authorized user and you will not attempt to do so. An
authorized user’s authority will continue until you (i) notify us that you are terminating the
authority and (ii) you physically retrieve any Card, checks and any other means of access to
your Card. Otherwise, you will remain liable for any transactions that we cannot prevent.
Each authorized user’s privilege ends automatically upon the death of all of the primary
cardmembers. If any person uses the Card after the privilege ends, such use indicates his
or her agreement to pay us, and we may, at our discretion, pursue the person for payment
of any balance or charge resulting from his or her use of the Card. You agree to notify each
authorized user that he or she is subject to the terms of this Agreement.
YOUR CREDIT LIMIT
We assign a total credit limit to your Account that we agree to extend to you at any one time.
The total credit limit will include a separate limit for cash advances. This information will be
shown on your Account statement.
Your available credit will be the amount of your total credit limit,
minus the sum of:
(i) the new balance, (ii) any purchases, balance transfers or cash advances which have been
authorized but not yet posted to your Account, and (iii) the amount of any payments that
have not yet cleared. We may change the amount of your total credit limit and the cash
advance limit without prior notice to you.
You agree not to exceed any part of your total credit limit. Even if we permit transactions that
exceed any part of your total credit limit, you are responsible for those transactions. If we
refuse any such transaction, we may advise the person attempting the transaction that it has
been refused and we are not responsible or liable for taking such action.
PURCHASES
You can use your Card to buy or lease goods or services. Each of these transactions is a
purchase. In addition, any credit life insurance charges, payment protection plan charges,
Account fees set forth below, and other fees that are charged to your Account (except cash
advance transaction fees) are treated as purchases and will be subject to the interest rate for
purchases.
BALANCE TRANSFERS
We may, at our sole option, allow you to pay an amount you owe on an account you have
with other creditors. This is called a balance transfer. We may pay the balance transfer
amounts you have authorized up to your total credit limit, unless otherwise limited by the
terms of the balance transfer. Balance transfers may not be used to make payments on
accounts issued or held by us or our affiliates.
When you make a balance transfer, we will charge interest beginning on the transaction date,
as described in more detail in the section Annual Percentage Rate and Interest. We will also
charge you a transaction fee as described in your Rates and Fees Table. The transaction fee
will accrue interest at the APR for purchases. Balance transfers

and balance transfer transaction fees may also be subject to promotional, special or
additional terms. Such terms will be included as part of your Agreement.
CASH ADVANCES
A Cash Advance means the use of your Account for a loan in the following ways:
1) Obtaining cash from a financial institution or an ATM:
You can use your Card to obtain cash advances from any financial institution that accepts
your Card and processes the transaction. The minimum amount of any cash advance you
can obtain from a financial institution in one day is $20 and the maximum amount is $3,000
or the available amount of your cash advance limit, whichever is less.
You can also use your Card and personal identification number (PIN) to get a cash advance
from any automated teller machine (ATM) that accepts your Card. The total amount of cash
advances you can obtain from ATMs in one day is $500 or the available amount of your
cash advance limit, whichever is less. We or the operators of ATMs may place additional
limitations and requirements on cash advances you may obtain from ATMs.
Authorization for cash advances over a certain dollar amount or number may be refused
under certain circumstances even though you have available cash. These restrictions may be
for security or other reasons, such as the ATM or other electronic authorization system not
working properly.
2) Convenience Checks:
A convenience check is any check we provide to you for accessing your account to obtain
credit. A convenience check transaction is a cash advance. Convenience checks may not be
used to make payment on any account issued or held by us or our affiliates. Convenience
checks may be subject to promotional, special or additional terms, which are included as
part of your Agreement.
We may pay the amount you have authorized up to your available credit limit, unless
otherwise changed by the terms of the offer. We reserve the right to put conditions on the
use of these checks and to reject, decline and return unpaid any check at our discretion. If
we decline a check, you may have to pay returned check fees or other penalties to whomever
you wrote the check. If you ask us to stop payment on a check, you will be charged a stop
payment fee. If you transfer a balance using a convenience check, that transaction will be
treated like any other convenience check transaction, unless we tell you otherwise. We
do not certify or return these checks. Convenience checks may include an expiration date
printed on the check. We will honor checks received for payment before the expiration date
printed on the check, provided your account is open and in good standing, with available
credit.
3) Purchasing a Cash Equivalent:
You may use your Card to enter into a cash equivalent transaction. This includes purchasing
travelers checks, savings bonds, foreign currency, money orders, wire transfers, lottery
tickets, gift cards, gambling chips or wagers, or similar products or services as determined
by us.
When you obtain a cash advance we will charge interest beginning on the transaction date,
as described in more detail in the section Annual Percentage Rate and Interest. We will also
charge you a transaction fee as described in your Rates and Fees Table. The transaction fee
will accrue interest at the APR for cash advances.
FOREIGN TRANSACTION/CURRENCY CONVERSION
If a foreign transaction fee applies to your Account, we will charge you a fee for transactions
that are conducted in a currency other than U.S. Dollars. This includes, for example, online
or phone purchases where the transaction is conducted in a currency other than U.S.

Dollars. This fee is calculated on the U.S. Dollar amount of the transaction. The transaction
fee is an interest charge that will accrue interest at the APR for purchases.
Our network providers (e.g., Mastercard) convert transactions in foreign currencies into
U.S. dollars. The type of card you have determines who does the conversion. Each network
provider follows its own procedures, which it may change from time to time without notice
to you at its discretion.
The exchange rate will be determined using either the range of rates available in the
wholesale currency markets for the processing date or a government- mandated rate in
effect on that date. The exchange rate used by our network providers may differ from the
rate on the date of your transaction. You agree to accept and pay the U.S. Dollar amount
converted from a foreign currency as provided in this section. We will deduct the applicable
fees from this amount. This means that the amount of the credit may be different from the
amount that was originally charged to your Account for the transaction.
ALLOWED USE
You agree to use your Account only for lawful purposes. You agree not to make or allow to
be made any transactions which are illegal under any state or federal law. We may decline to
approve any transaction which we reasonably believe is illegal under any state or federal law.

Your billing statement and making payments
BILLING STATEMENTS
We will send you a billing statement each month that you have a credit or debit balance of
more than $1, when an interest charge has been imposed, or when there has been activity
in your Account, unless we deem your Account uncollectible or delinquency collection
proceedings have been instituted against you. In our discretion, we may choose to send you
a statement even if you do not have a credit or debit of $1 or more.
Your statement will show the total amount that you owe us as of the end of the last billing
cycle. It will also show the minimum payment you must make to us by the stated due date.
NOTIFYING US IF YOU FIND A MISTAKE
Unless you notify us in writing within 60 days of receipt, your billing statement will be
deemed to be correct.
HOW TO MAKE A PAYMENT
Payments may be mailed to the address shown on your billing statement. Payments
made by mail must be accompanied by the return portion of your statement. Payments
must be made in U.S. Dollars drawn on a federally-insured depository institution located
in the U.S. You authorize us to collect any payment check either electronically or by
draft.
In addition to accepting payments by mail, we may permit you to make payments by
electronic means, including by telephone or Internet, subject to any terms we may
impose on these alternative methods of payment, including charging an expedited
service fee of which we will inform you at that time. Also, we may permit you to make
payments in person at one of our branches.
HOW WE CREDIT PAYMENTS
Payments received at the address shown on your billing statement before 5:00 P.M. Eastern
Time will be credited by us for that day. Payments received after this time will be credited
for the next business day. If your payment due date is on a day on which we do not receive
mailed payments, a mailed payment received on the next business day will not be treated
as late.

If you do not use one of the ways to make payments stated in this Agreement, the return
portion of your statement is damaged and we are unable to identify your Account, or you
do not comply with the payment requirements stated on your statement, crediting of your
payments may be delayed up to 5 days or your payment may be rejected.
If a payment is received in person at one of our branches before the actual time of closing
of the branch at which the payment is made, it will be credited by us for that day.
MINIMUM PAYMENT
You must pay at least the minimum payment due by the payment due date. You may pay
the entire amount you owe us at any time. The minimum payment due and payment due
date are shown on each billing statement. You also agree to pay amounts in excess of your
credit limit when billed to your monthly statements or sooner if we ask. If you do not pay
the minimum payment by the due date, we may charge you a late payment fee.
HOW WE CALCULATE THE MINIMUM PAYMENT
If your new balance is $30 or less, your minimum payment will be the new balance.
Otherwise, it will be the greater of (i) $30; or (ii) equal to the total billed Interest charges
(excluding transaction fees for balance transfers, cash advances, foreign transactions, and
cash equivalents), and any billed late payment fees and 1% of the new balance.
Any amount past due and any amount over your total credit limit or cash advance limit
may be added to the minimum payment. Your minimum payment, exclusive of interest
charges, will be rounded to the nearest whole dollar. We may change your minimum
amount due including increasing your minimum amount due subject to applicable law.
If you exercise your right to cancel contained in a change-in-terms notification, we
may increase your minimum amount due. We may require (i) a method in which the
minimum periodic payment includes a percentage of the outstanding balance that is
twice the percentage required before the increase or (ii) a method which incorporates an
amortization period of not less than 5 years. We may also choose a method that is no less
beneficial to you than the other two methods previously described.
HOW PAYMENTS ARE APPLIED
Payments less than or equal to the minimum amount due will be applied in any order
that we shall from time to time choose. Generally, payments less than or equal to the
minimum amount due are applied to introductory, promotional or low rate balances
before we apply payments to balances that are subject to standard or higher rates,
regardless of when the transaction is made. Any amount of your payments that is
greater than the minimum amount due will be applied first to balances with the highest
APR, and then to each successive balance with the next highest APR, until the payment
is exhausted.
RESTRICTIVE ENDORSEMENTS
Any conditional check, money order or any other instrument tendered with a restrictive
endorsement or as a full satisfaction of a disputed debt must be sent to our address for
billing error notices shown on each statement and must conspicuously state on the face of
that payment or in an accompanying letter that it is tendered for this purpose. If you make
payment in any other way and we accept it, we will not have waived our right to collect any
amount from you owed under this Agreement.
Annual percentage rate and interest
ABOUT YOUR ANNUAL PERCENTAGE RATES
The APR or “annual percentage rate” is an annualized interest rate. Different APRs apply
to different balances (called transaction types) on your Account, such as the balances on
purchases, balance transfers and cash advances.

Your APRs may be either fixed or variable. Your Rates and Fees Table and your statement
disclose whether you have fixed or variable rates. If an APR is variable, it may vary monthly
as the Index rate changes and will be reset on the first day of each billing cycle. The Index
rate is described in your Rates and Fees table. If the Index increases, the variable APRs will
increase. Any increase in your APRs will apply to all unpaid purchases, balance transfers
and cash advances (regardless of the transaction date), will increase the interest charge
and may increase the minimum payment.
HOW WE CALCULATE INTEREST
In General. We calculate the interest charge separately for each transaction type
(purchases, balance transfers, and cash advances) as well as for any applicable
promotional rate. This means that your Account may have separate balances for each
transaction type. The total interest charged for a billing cycle is the sum of the interest
charged for each balance.
We use the average daily balance (including new purchases) method, which means
we calculate a daily balance for each type of transaction and use the daily balances to
determine your interest charges. According to this method, we calculate the interest charge
for each balance by
• applying the “daily periodic rate” to the “average daily balance” and
• multiplying the result by the number of days in the billing cycle.
WE CALCULATE ITS COMPONENTS IN THE FOLLOWING WAY:
The “daily periodic rate” is a daily interest rate. The daily periodic rate for each transaction
type is equal to the APR for that transaction type divided by 365.
To get the “average daily balance” for each transaction type we add up the daily balances
and then divide the result by the total number of days in the billing cycle. If any day’s daily
balance is a credit balance, we will treat it as a balance equal to $0.00.
We calculate the “daily balance” by
• taking the “beginning balance” of the day,
• adding any new charges and applicable fees,
• except for the first day of the billing cycle, adding the amount of any interest equal to the
prior day’s daily balance multiplied by the daily periodic interest rate, and
• subtracting any payments or credits.
The “beginning balance” for the first day of the billing cycle is generally the ending balance
for the prior billing cycle, including unpaid interest. For the rest of the billing cycle, the
beginning balance is the prior day’s daily balance.
The addition of the prior day’s interest to the daily balance calculation causes interest
to compound daily. We may, at our discretion, round these amounts, subject to any
restrictions under applicable law.
MINIMUM INTEREST CHARGE
If any interest charge is due, we will charge you at least the minimum interest charge
shown on your Rates and Fees Table.
HOW TO AVOID INTEREST CHARGES
You can avoid interest charges on purchases if you pay your entire balance by the payment
due date every month. You will not pay interest for an entire billing cycle (“interest-free
period” or “grace period”) on new purchases and fees if you paid the entire balance by
the payment due date on your previous billing statement. The interest-free period or grace
period is the time when you are not charged interest on new purchases and fees. We will
not charge you interest on any portion of a purchase balance you repay while that balance
is subject to an interest-free period. The payment due date will be at least 21 days from the
statement date. To maintain the interest-free period, you must continue to pay your entire
balance every month.

You will lose your interest-free period if, at any time, you pay less than the entire balance
shown on your billing statement. If you lose your interest-free period, the unpaid balance for
purchases will be charged interest beginning on the transaction date and will continue to be
charged until payment in full is credited to your Account. The transaction date for purchases
is the day you make the purchase as shown on your statement.
Once the interest-free period is lost, you may owe interest charges even if you pay the entire
balance stated on your most recent billing statement by the due date. This occurs because,
interest continues to accrue every day on the balance shown on your most recent statement
until your payment in full is credited to your Account. The interest charged from the date of
the billing statement until the payment is credited to your Account will be included in your
next billing statement.
There is no interest-free period for cash advance or balance transfer transactions. You will
pay interest on cash advance and balance transfer transactions starting on the transaction
date until you pay the entire amount in full. The transaction date for balance transfers is the
day you make the balance transfer as shown on a statement. The transaction date for cash
advances and related cash advance fees is the day you receive the cash advance.
MILITARY LENDING ACT INFORMATION
Federal law provides important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the cost of consumer
credit to a member of the Armed Forces and his or her dependent may not exceed an annual
percentage rate of 36 percent. This rate must include, as applicable to the credit transaction
or account: The costs associated with credit insurance premiums; fees for ancillary products
sold in connection with the credit transaction; any application fee charged (other than certain
application fees for specified credit transactions or accounts); and any participation fee
charged (other than certain participation fees for a credit card account). To hear the Military
Lending Act Information, call 866-999-6336.
Default
YOU ARE IN DEFAULT IF ANY ONE OF THE FOLLOWING EVENTS HAPPEN
• you fail to make any payment when it is due;
• you have exceeded one or more of your credit limits;
• you provide us false, misleading, or fraudulent information;
• we become aware that you are using your Card for illegal or fraudulent purposes;
• you fail to comply with any term of this Agreement or other agreements with us or any of
our affiliated banks;
• you are not paying your debts as they become due or you are bankrupt or insolvency
proceedings are filed against you;
• a payment you made is rejected or cannot be processed;
• you die or are legally declared incompetent or incapacitated; or
• we otherwise reasonably believe that you may be unwilling or unable to pay your debts on
time.
OUR RIGHTS IF YOU ARE IN DEFAULT
We may reduce your total credit limit and/or your cash credit limit, increase your minimum
payment, close your Account or suspend or terminate credit privileges if you are in default.
We may, to the extent permitted by law, demand immediate payment of the total balance.
PENALTY APR RATE FOR NEW TRANSACTIONS
We may apply the penalty APR rate to new transactions if you:
• Do not pay at least the minimum payment due by the payment due date;
• Make a payment that is returned;
• Go over your credit limit; or

• Do any of the above on another account that you have with us.
Please refer to your Rates and Fees Table to determine if a penalty APR rate applies to your
Account. If the penalty APR rate is triggered, we will provide notice to you as required by
applicable law. This rate may apply indefinitely.
PENALTY APR RATE FOR EXISTING BALANCES
If we do not receive your minimum payment due within 60 days of the due date we may
apply the penalty APR rate to all your existing balances and all future balances.
Please refer to your Rates and Fees Table to determine if a penalty APR rate applies to your
Account. If the penalty APR rate is triggered, we will provide notice to you as required by
applicable law. If for 6 consecutive billing cycles following the cycle in which the penalty APR
rate is imposed, you make all required minimum payments by their payment due dates, we
will reinstate your APR on purchases, balance transfers and cash advances.
COLLECTION COSTS
If you are in default, we may refer your Account for collection or take any other actions
permitted by this Agreement or applicable law. If we do, you agree to pay the reasonable fees
and expenses of our collection agency or other person collecting your Account, as permitted
by law, including reasonable attorneys’ fees and alternative dispute resolution costs.
NEW HAMPSHIRE RESIDENTS: If you prevail in any action, suit or proceeding we bring or
in an action you bring in connection with this Agreement, reasonable attorneys’ fees shall
be awarded to you. If you successfully assert a pertinent defense, set off, recoupment or
counterclaim to an action brought by us, the court may withhold from us the entire amount
or such portion of the attorneys’ fees as the court deems appropriate.
WEST VIRGINIA RESIDENTS: Reference to the payment of attorneys’ fees and court costs in
the terms of this Agreement is void.
Account fees
The following fees may be assessed on your Account (these are considered Account fees).
If any fee in your Rates and Fees Table is marked none, the section of this Agreement that
relates to that fee does not apply. Unless we tell you otherwise, all Account fees are treated
as purchases (except that transaction fees for a cash advance are treated as a cash advance).
CARD REPLACEMENT FEE
If we replace a stolen, lost or damaged Card, we may charge your Account a Card
replacement fee of $10. We may charge additional fees for expedited or overseas delivery of
your replacement Card.
COPY FEE
We may charge your Account a copy fee of $5 for each page of photocopy of any sales slip
or other record of your Account plus $30 per hour for the time it takes our employees or
agents to make the copies, to the extent permitted by law.
STOP PAYMENT FEE
We may charge your Account a stop payment fee of $29 when you request that we stop
payment of a check you have requested (including balance transfer checks and other
checks that access your Account). You may make a stop payment request by calling us
or by writing to us. We will accept a stop payment request provided that we receive the
stop payment notice in a reasonable time before we have accepted, paid in cash, made
final payment on or otherwise become obligated to pay such check, except to the extent
otherwise required by applicable law. Stop payment requests will remain in effect for six
months unless renewed in writing or by calling us before the expiration of the 6-month
period.

LATE PAYMENT FEE
We may charge your account a late payment fee if we do not receive your minimum
payment by the payment due date. Your late payment fee is $29 for the first occurrence
and up to $40 for additional occurrences during the next six billing cycles. In no event will
your late payment fee exceed the minimum payment.
ANNUAL MEMBERSHIP FEE
Please refer to your Rates and Fees Table to determine if an annual membership fee applies
to your Account and, if applicable, the amount of the fee.
BALANCE TRANSFER TRANSACTION FEE, CASH ADVANCE TRANSACTION FEE, FOREIGN
TRANSACTION FEE
Please refer to your Rates and Fees Table (or if relevant, a special offer) to determine the
amount of this fee.
Closing an account
HOW TO CLOSE YOUR ACCOUNT
You may close your Account by calling us or writing to us. If there are multiple primary
cardmembers on your Account, any one of you may close your Account at any time. We
may immediately close your Account after we receive such a request, without giving notice
to other cardmembers on your Account. You agree that you will not hold us
responsible for any costs, damages or inconvenience you suffer as a result of the closing of
your Account by any cardmember on your Account.
WHEN WE MAY CLOSE YOUR ACCOUNT
Even if you are not in default, we may, at any time: (i) reduce your total credit limit and/ or
cash advance limit; (ii) close your Account; (iii) cancel or suspend your privileges to make
further purchases and balance transfers or obtain cash advances; or (iv) cancel or suspend
any Account privileges or benefits. We can also reissue a different card to you at any time.
WHAT YOU MUST DO WHEN YOUR ACCOUNT IS CLOSED
When your Account is closed, you must contact anyone authorized to charge
transactions to your Account, such as internet service providers, health clubs or
insurance agencies. Those transactions may continue to be charged to your Account
until you change the billing. Also, if we believe that you have authorized a transaction or
are attempting to use your Account after you have requested to close the Account, we
may allow the transaction to be charged to your Account and you will be responsible for
payment under the terms of this Agreement.
WHAT HAPPENS WHEN YOUR ACCOUNT IS CLOSED
If you close your Account, or we close your Account, you may not make any further
purchases and balance transfers or obtain cash advances. If you use your card after
closing your Account and we extend credit as a convenience to you, you remain
responsible for paying those charges. If we or you close your Account, we may, at our
option, require you to pay the entire balance of your Account at once or permit you to pay
the balance in monthly payments as provided in this Agreement or otherwise, as we
determine. Other Account fees, such as a late payment fee, will apply as applicable. If an
annual membership fee applies and you close your Account after the annual membership
fee is billed, we will remove the fee from your Account, provided your Account is closed
within 30 days after we mailed your statement on which the fee was charged to your
Account. You may pay any balance due on your Account at any time.

Other important information
HOW TO CONTACT US
Unless we tell you otherwise, you can contact us by phone: TOLL FREE 1-800-426-1114 or in
writing: Credit Card Services – Customer Service, P.O. Box 7092, Bridgeport, CT 06601. When
writing, please include your name, address, home phone number, and Account number.
A telephone call will not preserve your rights under federal law.
CHANGING YOUR BILLING ADDRESS
We will send statements and notices to your last known address. You promise to notify us
promptly of any change in your address by following the notification method provided in
the How to Contact Us section. If you have more than one Account, you need to notify us
separately for each Account.
MULTIPLE CARDMEMBERS
If there are two or more cardmembers obligated under this Agreement, we can send
statements and notices to any one. Any notice we mail to an address provided by any of
you for the Account will serve as notice to all of you. Each cardmember obligated under
this Agreement is jointly and severally liable for all amounts charged to the Account
regardless of which cardmember incurred the charges to the Account.
WE MAY CONTACT YOU
You authorize us (and our affiliates, agents and contractors) to contact you at any
number you provide to us, from which you call us, or at which we believe we can reach
you, and that we may contact you for any reason, including regarding any request you
make for a loan or other product, to service or collect on every account you currently
have with us or may have with us in the future and regarding any other products or
services we are providing to you or which we provide to you in the future. You authorize us
to contact you in any manner, including by means of automated dialing devices,
prerecorded messages, wireless push notifications, or text messages, even if you are
charged for receiving the communication and even if you will receive the communication on
a mobile or wireless device. You agree that such calls are not unsolicited and that
we may monitor and/or record them. You also agree to receive emails from us to any
address where we reasonably believe that we may contact you.
CREDIT INFORMATION
You agree that we will obtain credit reports about you, investigate your ability to pay, and
obtain information about you from other sources including information to verify and reverify your employment and income. We will use such information for any purposes,
subject to applicable law.
We may report information about your Account to credit bureaus. Negative credit
information, including late payments, missed payments, or other defaults on your
Account may be reflected in your credit report. We may report Account information in
your name and the names of authorized users. If you believe we have furnished
inaccurate or incomplete information about you or your Account to a credit reporting
agency, write to us at: Disputes, P.O. Box 7092, Bridgeport, CT 06601. Please include
your name, address, home phone number and Account number, and explain what you
believe is inaccurate or incomplete with supporting information.
INFORMATION SHARING
You authorize us to share information about you and your Account with affiliates and third
parties, unless the law or our Privacy Notice prohibits us from doing so. Please see our
Privacy Notice for your choices about information sharing. This includes information we
get from you and others. It also includes information about your transactions with us.
ACCOUNT UPDATER FOR THIRD-PARTY STORED INFORMATION, INCLUDING
PREAUTHORIZED DEBIT (RECURRING PAYMENTS)
If you choose to store your account information with anythird parties, we mayalso share
updates to this information with these third parties. Please note this only applies to third parties
with whom you elect to share this information. If you elect to share Account information with
a third party, you are responsible for any transfer or payment that third party makes from

your Account, even if that third party exceeds your authorization, and for any other issues
that arise with respect to your Account and/or information contained in your Account, by
virtue of the fact that you shared your Account information.
UNAUTHORIZED USE
If you notice the loss or theft of your Card or possible unauthorized use of your Card, you
should immediately call us TOLL FREE at 1-800-443-0164. You will not be liable for
any unauthorized use that occurs after you notify us. You may, however, be liable for
unauthorized use that occurs before your notice to us. In any case, if there is unauthorized
use of your Card, your liability will not exceed $50.
IF YOUR ACCOUNT HAS A CREDIT BALANCE
You may request a refund of credit balances at any time by writing. If you don’t request
a refund, we will apply credit balances to new transactions unless a refund is required
by law. If you have a credit balance that is less than $1,000 or such other amount as
we may determine, you may be able to request a refund over the telephone.
EVENTS BEYOND OUR CONTROL
Except as otherwise required by applicable law, we are not responsible and will incur no
liability to you for any failure, error, malfunction or any delay in carrying out any of our
obligations under this Agreement if any such failure, error, malfunction or delay results
from causes beyond our reasonable control.
NO LIABILITY FOR REFUSAL TO HONOR
We are not liable for any refusal to honor your Account. This can include a refusal to
honor your Card or Account or any check written on any transaction on your behalf. We
are not liable for any retention of your Card by us, any other financial institution, or any
provider of goods or services.
NO RESPONSIBILITY FOR UNAUTHORIZED ACCESS OR INQUIRIES
We are not responsible for unauthorized inquiries about your account or access to your
Account information. You agree that so long as we are in compliance with applicable law and
regulation that we will not be responsible or liable for the release of information to anyone
who has gained access to your Account or Account information.
GOVERNING LAW
This Agreement and use of your Account are governed by federal law. To the extent that
federal law does not govern, Connecticut law will apply, no matter where you live or use
your Account. We accept this Agreement in Connecticut. Decisions about granting credit
to you are made in Connecticut and all credit extended under this Agreement is extended
by us from Connecticut.
SEPARATION OF INVALID PROVISIONS
If any part of this Agreement becomes invalid under applicable law, the remainder of
this Agreement will remain valid and in effect. If your Account is subject to a law setting
maximum loan rates, fees or charges which is finally interpreted so that the charges on
your Account would exceed permissible limits, then any such charge will be reduced
(including retroactively) to permitted limits and any amount collected from you exceeding
those limits will be refunded to you.
OUR RIGHT TO DELAY ENFORCEMENT
We can delay enforcing any of our rights under this Agreement without losing any of them.
ASSIGNMENT
We may, at any time and without notice to you, sell, assign or transfer your Account,
any amount due in your Account, this Agreement or our rights and obligations under
your Account or this Agreement to any person or entity. The person or entity to whom
we make any such sale assignment or transfer is entitled to all of our rights and is
subject to all of your obligations under this Agreement, to the extent sold, assigned or
transferred.
ARBITRATION AGREEMENT
If you are a Covered Borrower, as defined by the Military Lending Act, the arbitration
provisions set forth in this section do not apply to you.

This section constitutes the Arbitration Agreement between you and us.
READ THIS SECTION CAREFULLY AS IT WILL HAVE A SUBSTANTIAL IMPACT ON HOW
LEGAL DISPUTES BETWEEN YOU AND US ARE RESOLVED. If you do not opt out, for a
dispute subject to arbitration, there is a waiver of rights as discussed below.
Arbitration procedures are simpler and more limited than rules applicable in court.
The decision of the arbitrator is generally final and binding.
You have the right to cancel or opt out of this Arbitration Agreement as set forth below.
SPECIAL DEFINITION OF “WE,” “US” AND “OUR”
Solely for purposes of this Arbitration Agreement, the terms “we,” “us” and “our,” in
addition to the meanings set forth in this Credit Card Agreement (the “Card Agreement”),
also refer to our employees, officers, directors, parents, controlling persons, subsidiaries,
affiliates, successors and assigns.
BINDING ARBITRATION
If you have a dispute with us, and we are not able to resolve the dispute informally,
you and we agree that upon demand by either you or us, the dispute will be resolved
through the arbitration process as set forth in this part. A “claim” or “dispute,” as used
in this
Arbitration Agreement, is any unresolved disagreement between you and us, arising from
or relating in any way to the Card Agreement (including any renewals, extensions,
addendums or modifications), the credit relationship between us, or relating to any
reward program, feature, or benefit. It includes any disagreement relating in any way to
services, accounts or any other matters; to your use of any of our banking facilities; or to
any means you may use to access your account(s). Any claims or disputes arising from
or relating to the advertising of our services, the application for, or the approval or
establishment of your Account are also included. Claims are subject to arbitration,
regardless of what theory they are based on, whether they seek legal or equitable
remedies, or irrespective whether they are common law or statutory (federal or state)
claims. Arbitration applies to any and all such claims or disputes, whether they arose in
the past, may currently exist, or may arise in the future.
However, “claim” or “dispute” as used in this Arbitration Agreement does not include
any dispute or controversy about the validity, enforceability, coverage or scope of this
Arbitration Agreement or any part thereof (including, without limitation, the “Class
Action and Class Arbitration Waiver” set forth below, subparts (1) and (2) of the
“Severability and Survival” part set forth below and/or this sentence); all such disputes
or controversies are for a court and not an arbitrator to decide; but disputes about the
validity or enforceability of this Account Agreement as a whole are for the arbitrator
and not a court to decide. ANY DISPUTE CONCERNING THE VALIDITY,
ENFORCEABILITY, COVERAGE OR SCOPE OF THIS ARBITRATION AGREEMENT
SHALL BE RESOLVED IN A RHODE ISLAND STATE OR FEDERAL COURT OF LAW, AND
THE PARTIES HEREBY SUBMIT TO THE JURISDICTION OF SUCH A COURT FOR SUCH
PURPOSE.
TRIAL WAIVER
YOU AGREE THAT YOU AND WE ARE WAIVING THE RIGHT TO A JURY TRIAL AND
TRIAL BEFORE A JUDGE IN A PUBLIC COURT upon demand by either party for arbitration.
However, you and we retain the right to pursue in small claims court (or an equivalent state
court) any dispute that is within that court’s jurisdiction and advance only an individual
claim for relief. If either you or we fail to submit to binding arbitration of an arbitrable
dispute following lawful demand, the party so failing shall bear all costs and expenses
incurred by the other party in compelling arbitration.

CLASS ACTION AND CLASS ARBITRATION WAIVER
NEITHER YOU NOR WE SHALL BE ENTITLED TO JOIN OR CONSOLIDATE DISPUTES
BY OR AGAINST OTHERS IN ANY COURT ACTION OR ARBITRATION, OR TO INCLUDE
IN ANY COURT ACTION OR ARBITRATION ANY DISPUTE AS A REPRESENTATIVE OR
MEMBER OF A CLASS, OR TO ACT IN ANY ARBITRATION IN THE INTEREST OF THE
GENERAL PUBLIC OR IN A PRIVATE ATTORNEY GENERAL CAPACITY, UNLESS THOSE
PERSONS ARE JOINT ACCOUNT BORROWERS OR BENEFICIARIES ON YOUR ACCOUNT.
This is so whether or not the claim has been assigned.
ARBITRATION PROCEDURES
You or we may submit a dispute to binding arbitration at any time, regardless of whether a
lawsuit or other proceeding has been previously commenced.
Each arbitration, including the selection of the arbitrator(s) shall be administered by the
American Arbitration Association (AAA), or JAMS according to such forum’s rules and
procedures. You may obtain a copy of the arbitration rules for these forums, as well as
additional information about initiating arbitration by contacting these arbitration forums:
American Arbitration Association
1-800-778-7879 (toll-free) | website: www.adr.org
JAMS
1-800-352-5267 (toll-free) | website: www.jamsadr.com
In the event that JAMS or the AAA is unable to handle the dispute for any reason, then
the matter shall be arbitrated instead by a neutral arbitrator selected by agreement of the
parties pursuant to the AAA rules of procedure; or, if the parties cannot agree, selected by
a court in accordance with the Federal Arbitration Act (Title 9 of the United States Code)
(“FAA”). To the extent that there is any variance between the selected forum’s rules and this
Arbitration Agreement, this Arbitration Agreement shall control.
If you initiate the arbitration, you must notify us in writing at Credit Card Services –
Arbitration, P.O. Box 7092, Bridgeport, CT 06601. If we initiate the arbitration, we will notify
you in writing at your last known address in our file.
The arbitration shall take place in the federal judicial district in which you reside, unless the
parties agree to a different location in writing. Arbitrators must be members of the state bar
where the arbitration is held, with expertise in the substantive laws applicable to the subject
matter of the dispute. No arbitrator or other party to an arbitration proceeding may disclose
the existence, content or results thereof, except for disclosures of information by a party
required in the ordinary course of its business or by applicable law or regulation.
The arbitrator will follow applicable substantive law to the extent consistent with the FAA.
The arbitrator will give effect to the applicable statutes of limitation and will dismiss barred
claims. In addition, you or we may submit a written request to the arbitrator to expand
the scope of discovery normally allowable. At the timely request of either you or us, the
arbitrator must provide a brief written explanation of the basis for the award. A judgment
on the award may be entered by any court having jurisdiction.
You and we agree that in our relationship arising from this Card Agreement:
(1) the parties are participating in transactions involving interstate commerce; and
(2) this Arbitration Agreement and any resulting arbitration are governed by the provisions
of the FAA, and, to the extent any provision of that act is inapplicable or unenforceable, the
laws of the state that govern the relationship between you and us.
No arbitrator shall have authority to entertain any dispute on behalf of a person who is not
a named party, nor shall any arbitrator have authority to make any award for the benefit of,
or against, any person who is not a named party.

ARBITRATION COSTS
The party initiating the arbitration (or appeal of the first arbitration award) shall pay the
initial filing fee. If you file the arbitration and an award is rendered in your favor, we will
reimburse you for your filing fee. If there is a hearing, we will pay the fees and costs for
the first day of that hearing. All other fees and costs will be allocated in accordance with
the rules of the arbitration forum. However, we will advance or reimburse filing and other
fees if the arbitrator rules that you cannot afford to pay them or finds other good cause
for requiring us to do so; or if you ask us in writing and we determine in good faith there
is justifiable reason for doing so. Each party shall bear the expense of their respective
attorneys, experts, and witnesses and other expenses, regardless of who prevails, but the
arbitrator will have the authority to award attorneys and expert witness fees and costs to
the extent permitted by either the Card Agreement, the forum’s rules or applicable law.
ARBITRATION AWARD AND APPEAL
The arbitrator’s award shall be final and binding on all parties, except for any right of appeal
provided by the FAA. However, any party can, within 30 days after the entry of the award
by the arbitrator, appeal the award to a three-arbitrator panel administered by the forum.
The panel shall reconsider anew all factual and legal issues, following the same rules of
procedure and decide by majority vote. Reference in this Arbitration Agreement to “the
arbitrator” shall mean the panel if an appeal of the arbitrator’s decision has been taken.
The costs of such an appeal will be borne in accordance with the above paragraph entitled
“Arbitration Costs.” Any final decision of the appeal panel is subject to judicial review only
as provided under the FAA.
SEVERABILITY AND SURVIVAL
If any part of this Arbitration Agreement is deemed or found to be unenforceable for any
reason, the remainder shall be enforceable, except that:
1. The parties acknowledge that the Class Action and Class Arbitration Waiver is material
and essential to the arbitration of any disputes between them and is non-severable
from this Arbitration Agreement. If the Class Action and Class Arbitration Waiver is
limited, voided or found unenforceable, then this Arbitration Agreement (except for this
sentence) shall be null and void with respect to such proceeding, subject to the right
to appeal the limitation or invalidation of the Class Action and Class Arbitration Waiver.
The parties acknowledge and agree that under no circumstances will a class action be
arbitrated; and
2. if a claim is brought under California law seeking public injunctive relief and a court
determines that the restrictions in the Class Action and Class Arbitration Waiver or
elsewhere in this Arbitration Agreement prohibiting the arbitrator from awarding
relief on behalf of third parties are unenforceable with respect to such claim (and that
determination becomes final after all appeals have been exhausted), the claim for public
injunctive relief will be determined in court and any individual claims seeking monetary
relief will be arbitrated. In such a case the parties will request that the court stay the
claim for public injunctive relief until the arbitration award pertaining to individual
relief has been entered in court. In no event will a claim for public injunctive relief be
arbitrated.
This Arbitration Agreement shall survive the closing of your Account and the termination or
modification of any relationship between us.
NOTICE AND CURE
Prior to initiating an arbitration, you may give us a written Claim Notice describing the
basis of your claim and the amount you would accept in resolution of the Claim, and a
reasonable opportunity, not less than thirty (30) days, to resolve the claim. Such a Claim
Notice must be sent to us by certified mail, return receipt requested, at Credit Card
Services – Arbitration, P.O. Box 7092, Bridgeport, CT 06601. This is the sole and only
method by which you can submit a Claim Notice. You should address all claims you have
in a single Claim Notice and/ or a single arbitration.

COLLECTION COSTS
Except where prohibited by law, if we take court action or commence an arbitration
proceeding against you for collection after you default, or if you elect arbitration of a
collection action we have brought against you in court, you will also be liable for court or
arbitration costs, other charges or fees, and reasonable attorneys’ fees, should we prevail in
such court action or arbitration.
RIGHTS PRESERVED
This Arbitration Agreement does not prohibit you or us from exercising any lawful rights
or using other available remedies to preserve, or obtain possession of property;
exercise self-help remedies, including setoff rights; or obtain provisional or ancillary
remedies such as injunctive relief, attachment, garnishment or the appointment of a
receiver by a court of competent jurisdiction.
RIGHT TO CANCEL OR OPT OUT OF THIS ARBITRATION AGREEMENT
You may opt out of this Arbitration Agreement to resolve any claim or dispute by
arbitration. To opt out of this Arbitration Agreement, you must send us written notice of
your decision within forty-five (45) days of the opening of your Account or of receiving
the Arbitration Agreement for the first time. Such notice must clearly state that you wish
to cancel or opt out of the Arbitration Agreement section of this Card Agreement. It
should include your name, address, Account name, Account number and your signature
and must be mailed to Credit Card Services – Arbitration, P.O. Box 7092, Bridgeport, CT
06601. This is the sole and only method by which you can opt out of this Arbitration
Agreement. Your exercise of the right to opt-out will not affect any remaining terms of this
Card Agreement and will not result in any adverse consequence to you or your Account.
You agree that our business records will be final and conclusive evidence with respect to
whether you cancelled or opted out of this Arbitration Agreement in a timely and proper
fashion.
Your billing rights – keep this document for future use
This notice tells you about your rights and our responsibilities under the Fair Credit
Billing Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR STATEMENT
If you think there is an error on your statement, write to us at Credit Card Services
– Disputes, P.O. Box 7092, Bridgeport, CT 06601-3211.
In your letter, give us the following information:
• Account Information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
YOU MUST CONTACT US:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled. If you want to
stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are
not required to investigate any potential errors and you may have to pay the amount in
question.
What will happen after we receive your letter
WHEN WE RECEIVE YOUR LETTER, WE MUST DO TWO THINGS:
1. Within 30 days of receiving your letter, we must tell you that we received your letter.
We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to
you why we believe the bill is correct.

WHILE WE INVESTIGATE WHETHER OR NOT THERE HAS BEEN AN ERROR:
• We cannot try to collect the amount in question, or report you as delinquent on
that amount.
• The charge in question may remain on your statement, and we may continue to charge
you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for
the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
AFTER WE FINISH OUR INVESTIGATION, ONE OF
TWO THINGS WILL HAPPEN
If we made a mistake: You will not have to pay the amount in question or any interest
or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along
with applicable interest and fees. We will send you a statement of the amount you owe and
the date payment is due. We may then report you as delinquent if you do not pay the amount
we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us
within 10 days telling us that you still refuse to pay. If you do so, we cannot report
you as delinquent without also reporting that you are questioning your bill. We must
tell you the name of anyone to whom we reported you as delinquent, and we must let
those organizations know when the matter has been settled between us. If we do not
follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH
YOUR CREDIT CARD PURCHASES:
If you are dissatisfied with the goods or services that you have purchased with your
credit card and you have tried in good faith to correct the problem with the merchant,
you may have the right to not pay the remaining amount due on the purchase.
TO USE THIS RIGHT, ALL OF THE FOLLOWING MUST BE TRUE:
1. The purchase must have been made in your home state or within 100 miles of your
current mailing address, and the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do
not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact
us in writing at: Credit Card Services – Disputes, P.O. Box 7092, Bridgeport, CT 066013211.
While we investigate, the same rules apply to the disputed amount as discussed above.
After we finish our investigation, we will tell you of our decision. At that point, if we think
you owe an amount and you do not pay, we may report you as delinquent.

© Citizens Bank, N.A. 2020
1353703_CD20_MasterAgreementUpdatesSafeHarbor

Rev 1/21
CHA 1/21

.

Rates and Fees Table
Interest Rates and Interest Charges
Annual Percentage
Rate (APR) for Purchases

APR for Balance
Transfers
APR for Cash Advances
Penalty APR and When
It Applies

11.99% to 21.99%. This APR will be based on your creditworthiness and
will vary with the market based on the Prime Rate.*
Introductory APRs with varying durations may be available on some accounts.
11.99% to 21.99%. This APR will be based on your creditworthiness and will
vary with the market based on the Prime Rate*
Introductory APRs with varying durations may be available on some accounts.
24.99%.
This APR will vary with the market based on the Prime Rate.*
Up to 29.99%.
This APR may be applied to your account if you:
(1) Fail to make the minimum payment by the payment due date;
(2) Exceed your Cash Advance Limit or your Total Credit Limit;
(3) Make a payment that is returned or dishonored.
How Long Will the Penalty APR Apply? If your APRs are increased due to
any default (as described above), the Penalty APR may apply indefinitely.

Paying Interest

Your due date is at least 21 days after the close of each billing cycle. We will not
charge you interest on Purchases if you pay your entire balance by the due date of
each month. You will pay interest on Cash Advances, Balance Transfers and
Convenience Checks from the transaction date.

Minimum Interest Charge

If you are charged interest, charge will be no less than $1.50

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

Annual Fee

NONE

Transaction Fees
- Balance Transfer

Either $10 or 3% of the amount of each transfer, whichever is greater.

Fees

- Cash Advance

Cash Loans, ATM Loans, and Convenience Check Loans: Either $10 or up to 3%
of the amount of each advance, whichever is greater.
Cash Equivalent Transactions: Either $20 or 5% of the amount of each advance,
whichever is greater

- Foreign Transaction

Penalty Fees
- Late Payment
- Returned Payment
- Over-the-Credit Limit

Either $1.50 or 3% of the U.S. dollar amount of each transaction, whichever is greater

Up to $40
NONE
NONE

How we will Calculate your Balance: We will use the method called "average daily balances (including new
purchases)." See Cardholder Agreement for more details.
Loss of Introductory APR: We may end your Introductory APR and Apply the Penalty APR if you make a late payment.
*How We Will Calculate Your Variable Rates: Your variable rates may change when the Prime Rate changes. Your APR for
Purchases and Balances Transfers may vary monthly and will be reset on the first day of each billing cycle by adding the
index to a margin of 8.74-18.74 percentage points. The APR for Cash Advances may vary monthly and will be reset on the
first day of each billing cycle by adding the index to a margin 21.74 percentage points. The Index is determined monthly and
it is the Prime Rate published in the northeastern edition of The Wall Street Journal in its Money Rates table on the first day of
the preceding month rounded up to the nearest one-quarter of a percentage point. If the first day of the preceding month is not
a business day, the Bank will use the Prime Rate published on the next business day.
The information about costs of the card described in this application is accurate as of January 28, 2021. This information
may have changed after that date. To find out what may have changed, call us toll free at 1-800-426-1114 or write to
us at Credit Card Services, P.O. Box 7092, Bridgeport, Connecticut 06601

